LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

May 27, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1499:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

AMERICAN CIVIL LIBERTIES UNION V. UNITED STATES

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Brennan Center
for Justice at NYU School of Law and Americans for Prosperity Foundation on May 27,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020 on the following counsel for the Petitioner and Respondent:
PETITIONER:
Theodore B. Olson
Gibson Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
202-955-8668
tolson@gibsondunn.com

RESPONDENT:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing one copy of the Brief of Amici Curiae
Brennan Center for Justice at NYU School of Law and Americans for Prosperity
Foundation in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 27th day of May 2021.

